GR-70-98-024
U.S. DEPARTMENT OF JUSTICE
 

AUDIT REPORT
 
 Community Oriented Policing Services
Grants to the New Castle County, Delaware Police Department
GR-70-98-024
 
September 25, 1998
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of grants
awarded by the U.S. Department of Justice, Office of Community Oriented Policing Services
(COPS) to the New Castle County, Delaware Police (New Castle). New Castle County received
a total of $1,605,000 in COPS grants to hire 15 additional sworn police officers and
redeploy 22.8 full-time-equivalent (FTE) sworn police officers to community policing. 

New Castle violated the following grant conditions.



New Castle did not fill officer vacancies in a timely manner and therefore did not
      comply with the non-supplanting condition. New Castle had 294 officers and 11 vacancies on
      the baseline date. When New Castle hired 10 Universal Hiring Program (UHP) officers, its
      force should have increased to 304 officers. However, in the 14 months following the
      hiring of the UHP-funded officers, New Castle had 304 or more officers for only 4 months.
      Consequently, we question $221,372 in grant reimbursements. If the deficiency is not
      remedied within 60 days, we recommend that the remaining $631,637 be deobligated and the
      funds be put to a better use.

New Castle used a previously employed civilian to fill a Making Officer Redeployment
      Effective (MORE 95) position and charged civilian overtime to the MORE 95 grant. As a
      result, we question $25,855 New Castle received as reimbursement.


These items are discussed in the Findings and Recommendations section of the report.
Our Scope and Methodology appear in Appendix II.
#####